1

APPENDIX A

>>

Case 19-3205, Document 69-1, 11/06/2020, 2969240, Pagel ot 6
19-3205-cr
United States v. Spells

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION “SUMMARY ORDER”). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York,
on the 6th day of November, two thousand twenty.
Present:

Robert d. Sack,
ROBERT A. KATZMANN,
WILLIAM J. NARDINI,
Circuit Judges.

United States of America,
Appellee,
v.

No. 19-3205-cr

Ronnie Spells,
Defendant-Appellant.

For Defendant-Appellant:

Allegra Glashausser, Federal Defenders of
New York, New York, NY.

For Appellees:

Jacqueline C. Kelly, Thomas McKay,
Assistant United States Attorneys, for Audrey
Strauss, Acting United States Attorney for the
Southern District of New York, New York,
NY.

Appeal from an order of the United States District Court for the Southern District of New
York (Castel, J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the order of the district court is AFFIRMED.

Case 19-32U5, Document 59-1, n/0b/202U 29b9240, Page2 ot 6
Defendant Ronnie Spells appeals from an order entered September 27, 2019, denying his
motion for a reduced sentence pursuant to Section 404 of the First Step Act of 2018, Pub. L. No.
115-391, 132 Stat. 5194, 5222. We assume familiarity with the factual and procedural background
of this case and the issues on appeal. For the reasons that follow, we conclude that the district court
did not abuse its discretion in denying Spells’s motion, and we therefore affirm.
Spells pleaded guilty in 2005 to various firearms offenses, a heroin offense, and — as is
most relevant here — one count of possessing at least five grams of cocaine base with intent to
distribute, in violation of the offense then set forth at 21 U.S.C. §§ 841(a)(1), 841 (b)( 1 )(B)(iii). On
October 4, 2006, the district court — the Honorable Gerard E. Lynch, who was then assigned to
the case — sentenced Spells to a total of 232 months’ imprisonment. Spells appealed and we
affirmed in part, vacated one aspect of the judgment of conviction, and remanded so that the district
court could reconsider its sentence in light of the Supreme Court’s intervening decisions in
Kimbrough v. United States, 552 U.S. 85 (2007), and Gall v. United States, 552 U.S. 38 (2007).
See United States v. Spells, 267 F. App’x 93, 94 (2d Cir. 2008). On remand, the district court
resentenced Spells principally to a total of 186 months’ imprisonment. Upon Judge Lynch’s
elevation to this Court, the case was reassigned to the Honorable P. Kevin Castel.
On August 3,2010, President Obama signed into law the Fair Sentencing Act of 2010, Pub.
L. No. 111-220, 124 Stat. 2372. As relevant here, Section 2 of the Fair Sentencing Act modified
the statutory penalties for crack cocaine offenses, like the one for which Spells was sentenced, that
were subject to 21 U.S.C. § 841 (b)( 1 )(B)’s mandatory sentencing range. 124 Stat. at 2372; see
United States v. Johnson, 961 F.3d 181 (2d Cir. 2020). Initially, the Fair Sentencing Act’s reforms
did not apply retroactively to defendants like Spells who had been sentenced prior to its passage.
See Dorsey v. United States, 567 U.S. 260, 273 (2012). Eight years later, however, President
Trump signed the First Step Act of 2018, Pub. L. No. 115-391,132 Stat. 5194, which made certain
provisions of the Fair Sentencing Act retroactive. In particular, Section 404 of the First Step Act
2

Case iy-3205, Document 69-1, 11/06/2020, 296y240, Paged of 6
provides that, if a defendant was originally sentenced for a “covered offense” as defined by the
Act, a district court “may ... impose a reduced sentence as if sections 2 and 3 of the Fair
Sentencing Act of 2010 ... were in effect at the time the covered offense was committed.” First
Step Act. § 404(b), 132 Stat. at 5222. Section 404 also provides that “[njothing in [Section 404]
shall be construed to require a court to reduce any sentence pursuant to [Section 404].” Id. § 404(c),
132 Stat. at 5222.
On July 25, 2019, Spells moved for a sentence reduction pursuant to Section 404 of the
First Step Act. The government opposed. On September 27,2019, the district court denied Spells’s
motion in a written order. The district court concluded that Spells was eligible for Section 404
relief, but exercised its discretion to deny the motion. -The district court noted that Section 404
“does not set forth the factors that a court should consider in exercising its discretion,” but
considered “the purpose of the statute,

99

((

the reasons why the sentence was imposed in the first

place,” and the sentencing factors set forth at 18 U.S.C. § 3553(a). App’x 106-07. The district
court also reasoned that it was obligated to “consider the facts as they exist[ed]” at the time of its
decision on the Section 404 motion, rather than as they existed at the time of the original sentence,
and therefore also considered Spells’s post-sentencing conduct. App’x 107. The district court'
denied the motion based on its conclusion that the original sentence was based on the “seriousness
and danger” of Spells’s firearms offenses, App’x 108, its conclusion that Spells’s “post sentence
conduct has been poor,” id., and based on the § 3553(a) factors, “all of which” were considered,
“even though not discussed,” by the district court, App’x 109. In particular, the district court noted
that Spells’s offenses “remain worthy ofjust punishment and his sentence promotes respect for the
law,” and that “[t]here remains a serious and important need to protect the public from further
crimes of the defendant.” Id.; see 18 U.S.C. § 3553(a)(2) (requiring the district court to consider
“the need for the sentence imposed ... to reflect the seriousness of the offense, to promote respect
for the law, and to provide just punishment for the offense,” and “to protect the public from further
3

Case 19-3205, Document 59-1, 11/06/2020, 2969240, Fage4 ot 6
crimes of the defendant”). Finally, the district court explained why, in its judgment, Spells
remained a significant risk for recidivism despite his increasing age.
“Section 404 relief is discretionary,” Johnson, 961 F.3dat 191; see First Step Act § 404(c),
132 Stat. at 5222, and we review the denial of a motion for such relief for abuse of discretion, see
United States v. Holloway, 956 F.3d 660, 664 (2d Cir. 2020). “[T]he First Step Act does not
obligate a district court to consider post-sentencing developments,” but “a district court retains
discretion to decide what factors are relevant as it determines whether and to what extent to reduce
a sentence.” United States v. Moore, 975 F.3d 84, 92 n.36 (2d Cir. 2020).
On appeal, Spells argues that the district court failed to explain why its decision was
supported by the sentencing factors set forth at 18 U.S.C. § 3553(a). But assuming without
deciding that the district court was required to consider the § 3553(a) factors in this context, it
remains the case that a district court is not required to “discuss every § 3553(a) factor
individually,” or to make “robotic incantations,” when making sentencing decisions. United States
v. Rosa, 957 F.3d 113, 119 (2d Cir. 2020). Instead, we “presume^ that the sentencing judge has
considered all relevant § 3553(a) factors and arguments unless the record suggests otherwise.” Id.
at 118. And we will not second-guess the weight that a district court has assigned to any particular
sentencing factor; instead, we will only “consider whether the factor, as explained by the district
court, can bear the weight assigned it under the totality of circumstances in the case,” and will
vacate a sentence only where it “cannot be located within the range of permissible decisions.”
United States v. Cavera, 550 F.3d 180, 191 (2d Cir. 2008) (en banc). Here, the district court
explained in its written order how specific § 3553(a) factors supported the denial of a discretionary
reduction. Nothing in the record suggests that the district court failed to consider any relevant
factors in arriving at its decision or that it assigned impermissible weight to any one factor.
Spells suggests that the only factors the district court discussed actuallyfavored a sentence
reduction. While it is true that the district court noted the reduced recidivism risk of crack offenders
■4

Case 19-32U5, Document by-1, 11/Ub/202U, 2yfc>9240, Hage5 of 6
in general, the district court also relied on factors more particularized to Spells’s case, like his
firearms convictions and his poor post-sentence conduct, that supported the district court’s
conclusion that the goals of just punishment, promoting respect for the law, and protecting the
public weighed against granting the motion. The fact that the district court also discussed evidence
that might weigh in Spells’s favor did not make its overall decision less reasonable.
Finally, while Spells objects that the district court failed to explain why, in particular, his
proposed sentence reduction was unwarranted, “we never have required a District Court to make
specific responses to points argued by counsel in connection with sentencing.” United States v.
Bonilla, 618 F.3d 102, 111 (2d Cir. 2010). Instead, the district court “must satisfy us only that it
has considered the party’s arguments and has articulated a reasonable basis for exercising its
decision-making authority.” Id. The district court did so here.
Spells also argues that it was an abuse of discretion to deny his motion because the First
Step Act was enacted to grant relief to those sentenced under the pre-Fair Sentencing Act regime,
when the statutory penalties for crack cocaine offenses were even harsher, especially relative to
those for powder cocaine offenses, than they are today. And, Spells points out, one of the stated.
goals of Judge Lynch’s original sentence was the avoidance of unwarranted sentencing disparities
with similarly situated crack offenders. Spells reasons that the same principle favors a lower
sentence today, after the passage of the First Step Act. But it is clear that, notwithstanding the
broad purposes of the First Step Act in favor of sentencing relief for crack cocaine offenders, see
Johnson, 961 F.3d at 191, Section 404 does wot require a court to grant relief in any particular case,
see First Step Act § 404(c), 132 Stat. at 5222. It follows that, in some cases, a district court may
properly deny a Section 404 motion because of a defendant’s particular circumstances, even
though that means leaving in place a sentencing disparity of the type Section 404 authorizes district
courts to address. The district court in this case acknowledged that Section 404 reflected
Congress’s “concerns that some sentences imposed in the past may be too long in view of the
5

Case 19-3205, Document 69-1, 11/06/2020, 2969240, Pageb ot 6
unwarranted disparity” between crack and powder cocaine sentences, but — as discussed above
— also adequately explained why, in its judgment, a sentence reduction was not warranted in this ,
particular case. App’x 107.
As we have explained, it is not for us to consider that decision afresh as though we were
the sentencing court. Instead, we must decide whether the district court abused its discretion in
denying Spells’s motion. On the record before us, we conclude that it did not. See Moore, 975 F.3d
at 93-94 (affirming denial of First Step Act relief where district court relied on post-conviction
disciplinary record).
We have considered all of Spells’s arguments and found in them no basis for reversal. For
the reasons set forth above, the order of the district court is AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

6

APPENDIX B

Case i:04-cr-uiau4-KNu uucuiiiem

rilCU <UCJt£-it J-V/

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
■x

UNITED STATES OF AMERICA,

04 cr 1304 (PKC)

-againstOPINION AND ORDER
RONNIE SPELLS,
Defendant.
•x
CASTEL, District Judge:
This is an application by defendant Ronnie Spells for relief under the First Step
Act of 2018, P.L. 115-91, § 404(b), 132 Stat. 5194, 5220 (2018). He is presently serving a
sentence of principally 186 months imprisonment. Defendant’s counsel and the government
have been fully briefed the legal and factual issues. (Brown Ltr., July 25, 2019; Gov’t Ltr. Sept.
6,2019; Brown Ltr. Sept. 10,2019.)
The Court agrees that it has discretion to reduce the sentence of Mr. Spells. Based
upon the considerations referred to herein, the Court declines to do so.

Procedural History
Mr. Spells entered guilty pleas to four counts of the indictment: Count One
charged possession with intent to distribute five grams and more of crack cocaine; Count Two
charged possession with intent to distribute a controlled substance; Count Three charged use and
carrying firearms in furtherance of Counts One and Two; and Count Four charged that he was a
felon in possession of firearms. The offense conduct included possession of 42 grams of crack,
28 grams of cocaine, a loaded Intratek TEC DC-9 submachine gun, a loaded Astra A-75 .380
caliber semi-automatic handgun, a loaded Rohm .38 caliber revolver and a loaded Cobray MAC

1

• Case l:04-cr-013U4-KKU uuuumeiii

I-1IC7U

i

~ —

11 submachine gun. The defendant had six prior convictions, including attempted criminal
possession of a weapon arising from the presence of four firearms (one reported stolen and two
with serial numbers defaced) at a location with which he was closely associated (Sept. 27,2006,
Tr. 27-28) and two criminal sales of a controlled substance.
Insofar as Count One Mr. Spells was charged with possession with intent to
distribute 5 grams and more of crack cocaine and the language of the indictment added “to wit,
SPELLS possessed approximately 42 grams of cocaine base in an apartment in the Bronx ,New
York.” (Doc 1.) At his plea allocution before then Magistrate Judge Ellis he stated that he
“possessed with intent to distribute over five grams of crack cocaine....” (Doc 13.) Judge Ellis
advised Mr. Spells that on Count One he would be subject to a mandatory minimum term of
imprisonment of five years, triggered at the time by a quantity of five grams. The Presentence
Report (“PSR”) recited that the DEA determined that the quantity of crack cocaine found in Mr.
Spell’s bedroom was 42 grams. (PSR 135.) The PSR premised Mr. Spells’s guideline
calculation, in part, on the possession of between 35 grams and 50 grams of crack. No challenge
was raised relating to drug quantity.

!

Then District Judge Lynch found Mr. Spells to be at Total Offense Level 32 and
Criminal History Category VI with a guidelines range of imprisonment of 262 months to 327
months imprisonment. Judge. Lynch acknowledged that “the guidelines are only advisory” and
not entitled to any presumption (Sept. 27,2006, Tr. 31-33). Mr. Spells was sentenced principally
to 232 months imprisonment, 30 months below the bottom of the guidelines range. (Doc. 18.)
On appeal, the Second Circuit did not disturb Judge Lynch’s guideline calculation
but remanded to “reconsider” in view of Kimbrough y. United States, 552 U.S. 85 (2007) and
Gall v. United States, 552 U.S. 38 (2007).

2

Case l:04-cr-01304-PKU uocurneiu

tc

rncu

11 jlcj

t

^

W

Judge Lynch resentenced Mr. Spells to principally 186 months imprisonment.
(May 21,2008, Tr. 29; Doc 27.) Mr. Spells appealed from the Amended Judgment, which
appeal was subsequently withdrawn. (Doc. 28,31.)
Since then, he has moved (1) for credit for time served, which was denied (Doc
36); (2) for the retroactive application of the Fair Sentencing Act of 2010 (Doc 38), which was
denied,

citing TTnite.d States v Diaz. 627 F.3d 930 (2d Cir. 2010) (Doc 39 & 40.); (3) under 28

U.S.C. § 2255, relating to his “career offender” status, which was denied on statute of limitations
grounds (Doc 5 in 14 cv 3774); (4) to reconsider the denial of his section 2255 motion, which
was denied (Doc 6 in 14 cv 3774); (5) a second successive section 2255 motion challenging his
conviction under 18 U.S.C. § 924(c), which was transferred to the Court of Appeals (Doc 14 m
14 cv 3774) and later denied by the Court of Appeals (Mandate, Doc 20 in 14 cv 3774); a motion
to alter or amend the judgment, which was denied (Doc 17 in 14 cv 3774); a motion to
reconsider the transfer order, which was denied (Doc 22 in 14 cv 3774).
On May 23,2019, Mr. Spells sought the appointment of counsel to pursue any"
available avenue of relief under the First Step Act of 2018. The next day, the Court appointed
Jennifer L. Brown of the Federal Defenders of New York to represent him.

Eligibility for a Reduction
Section 404(a) of the First Step Act provides insofar as relevant that “[i]n this
section, the term ‘covered offense’ means a violation of a Federal criminal statute, the statutory
penalties for which were modified by section 2 or 3 of the Fair Sentencing Act of 2010 [(“FS A”)]
....” The term “which” in the phrase “the statutory penalties for which were modified”
unambiguously refers to “the violation of a Federal criminal statute.” A covered offense is the

3

Case l:04-cr-01304rPKU uocumem (*.

riltiU U3/4H13

rayo

“r ui

violation of a federal criminal statute for which the “statutory penalties” have been modified by
section 2 or 3 of the FSA.1
Mr. Spells entered to a plea of guilty to a violation of 21 U.S.C. § 841(b)(1)(B)
and admitted at the time of his plea allocution to possession with intent to distribute more than 5
grams of crack which, at subdivision iii, triggered a five-year mandatory minimum. The
statutory penalty for a violation of section 841(b)(l)(B)(iii) has been modified by section 2(a)(2)
of the FSA, which increased the quantity of crack cocaine triggering the mandatory minimum to
28 grams. Thus, on its face, Mr. Spells was convicted of a “covered offense.”2
The government takes the position that because the triggering quantity for the
mandatory minimum sentence was increased from 5 grams to 28 grams and the quantity of crack
for which Mr, Spells is responsible is 42 grams, the statutory penalties were not modified for his •
offense conduct because then and now he could have been subject to the five-year mandatory
minimum. In focusing on the offense conduct and not whether the statutory penalties for the
violation of the criminal statute were modified, the government’s argument misses the mark.
The government does not go so far as to urge that Mr. Spells would be subject to
the five-year mandatory minimum if he were sentenced today. While Mr. Spells admitted to
possessing over five grams of crack, he never admitted to possessing over 28 grams of crack.
The critical fact that triggered a mandatory minimum under the higher quantity was neither
proven beyond a reasonable doubt to a jury nor admitted at his plea allocution. Apprendi v. New
Jersey. 530 U.S. 466 (2000); Allevne v. United States, 570 U.S. 99 (2013). Thus, he would not
1 The Court agrees with Judge Caproni construction of section 404(a) in her thoughtful opinion in United States^,
Rose 03 cr 1501(VEC) (S D.N.Y. May 24, 2019) (Section A at pp. 5-10). Judge Oetkin succinctly summarized
andagreed with Judge Caproni’s reasoning: “[i]t is clear that whether a particular offense is a ‘covered offense’is
determined by the statute the defendant violated. If the statute is one for which the statutory penalties were modified
by section 2 or 3 of the [FSA], then that offense is a “covered offense.” United States v. Williams, 03 cr 1334 (JPO)
2 There is no dispute that he meets the other requirement for a “covered offense,” that the violation' was committed
prior to August 3,2010.

4

Case l:04-cr-01304-PKU Document tt.

|—lltiU Ui)l/Ctl±v

raye vj ui

j-u

have been exposed to a mandatory minimum if the FSA’s modified higher quantity of 28 grams
had applied. But whether the defendant would have been subject to the mandatory minimum
post-enactment of the FSA is beside the point in deciding whether the statutory penalties for the
violation of federal law for which defendant was convicted were modified by the FSA. Here, the
penalties were so modified.
Subdivision b of.section 404 provides that “[a] court that imposed a sentence for a
covered offense may ... impose a reduced sentence as if sections 2 and 3 of the Fair Sentencing
\ Act of 2010

.. .were in effect at the time the covered offense was committed.” Subdivision c

reinforces that permissive nature of any reduction: .“[njotbmg in this section shall be construed to
require a court to reduce any sentence pursuant to this section.” Sections 404(b) & (c).
The Court “may” impose a reduced sentence “as if’ section 2 of the FSA were in
effect at the time the covered offense was committed. Notably section 404(b) does not state that
the Court may only reduce the sentence to what it would have been had the later-enacted higherquantity mandatory minimum been in effect. The Court concludes that it has discretion to reduce
the sentence that was imposed upon Mr. Spells.
The First Step Act does not set forth the factors that a court should consider in
exercising its discretion. Whether a reduction of sentence furthers the purpose of the statute, as
discerned from its text, is implicitly a relevant consideration. Presumably the statutory grant of
' discretion to reduce sentences was intended to be used in appropriate cases. To know whether a
reduction is warranted, requires an understanding of the reasons why the sentence was imposed
in the first place. The question is not whether the sentence was wise, sound or reasonable but
whether the discretion granted by the First Step Act should be exercised to reduce that sentence.
Because consideration of a reduction occurs long after the original sentence, a court should

5

Case l:04-cr-01304-PKU uocumeru

nitJU U3/4IU3

rayc

\J

I XV

consider the facts as they exist at the time it exercises discretion; this includes post-sentencing
evidence

of disciplinary history and steps toward rehabilitation. Any reduction should be guided

by the statutory factors to be considered in sentencing a defendant as set forth in 18 U.S.C. §
3553(a).
The purpose of the First Step Act, as manifested by its text, was to invest
discretion in a district court to reduce a sentence for an offense for which a mandatory minimum
was altered by the FSA. The FSA, insofar as it relates to section 2, reduced the unwarranted
disparity in mandatory minimum triggering quantities for crack and powdered cocaine. A
defendant convicted of solely non-crack drug crimes would be ineligible for relief, except in the
case of simple possession.3 Giving a court discretion to “impose a reduced sentence,” and not a
higher sentence, demonstrates lawmakers’ concerns that some sentences imposed in the past may
be too long in view of the unwarranted disparity.
There is little doubt concerning the judge’s reasons for the sentence imposed on
Mr. Spells. Judge Lynch noted that “the present conviction involved dealer-level quantities of
both Crack and heroin, as well as not one but four loaded firearms, including two submachine
guns, and several of those weapons had obliterated serial numbers.” (Sept. 27,2006, Tr. 28).
The record, he observed, reflected “a complete disregard for law” (IcL, Tr. 28), noting that he has
“violated bail, violated probation, returned to crime after being imprisoned and smuggled
contraband into the prison system itself.” (Id, 30-31.) Judge Lynch acknowledged that “the
guidelines are only advisory” and not entitled to any presumption (id, Tr. 31-33) and concluded
that a sentence 30 months below the low end of the guidelines was appropriate and sufficient.
At resentencing following remand, Judge Lynch acknowledged that the guidelines
for crack cocaine had been lowered since the date of original sentencing. (May 21,2008, Tr. 6.)
3 Section 3 of the FSA, not applicable here, related to simple possession offenses.

6

Case l:04-cr-013U4-HKU uucumem

f£

rncu

lc;

i uyv^ I

He reiterated that “the offense conduct here is extremely serious because it involves the
possession of extremely dangerous weapons by a defendant who is, by any account, a career
criminal” and that “it would be a dereliction of my duty to protect the public to gamble on your
planning [sic] to have reformed.’ (Id., Tr. 18.)
Judge Lynch’s revised sentence was 76 months below the advisory guidelines.
To describe such a sentence as “so clearly anchored... to the drug quantity guidelines” (Brown
Ltr., July 25,2019 at 10) is abit of a stretch.4 A fair reading of the sentencing transcripts
reveals that, in addition to all other section 3553(a) factors, the judge focused upon the
seriousness and danger of a career drug trafficker possessing four loaded firearms, including two
submachine guns and firearms with obliterated serial numbers.
Mr. Spells post-sentence conduct has been poor. His disciplinary history includes
possession of drugs/alcohol, assaults, possession of a dangerous weapons, fighting and
threatening bodily harm. The Court accepts defendant’s modest point that he has not had a
disciplinary charge since April 2018. While incarcerated, he “completed all the necessary
requirements to be a certified dental assistant.” (Brown Ltr., July 25,2019 at 11.) His counsel
has submitted a brief seven-line note from defendant’s fiance stating that he plans to move to
Raleigh, North Carolina, marry, and work as a dental assistant or a barber. The Court notes that
prior to his conviction he had briefly attended the New York School for Medical and Dental
Assistants (PSR, ^ 94) and worked for years as a barber (id, 196) and this training and
experience did not impede his criminal activities.

4 In the proceeding following remand, the sentencing judge looked at what the guidelines would have been had there
been no career offender enhancement and added 25%. (May 21,2008, Tr. 25,27.) He also remarked: “the problem
will all such considerations, of course, is that in the end, one has to pick a certain somewhat arbitrary number. (Id.,
Tr. 25.) Reducing the entirety of the two sentencing proceedings to a series of arithmetic calculations, as defendant
argues. is not a fair reading of the judge’s extended remarks.

7

Case l:04-cr-0I3U4-l-'KU uuuumtMii UL

rucu \jvi c. 11 ao

I

U

Wl

JUW

The Court has also considered whether the application of section 3553(a) factors
(all of which have been considered even though not discussed) would now counsel in favor of a.
reduced sentence and concludes that they would not. The sentencing judge calculated the
guidelines range correctly, acknowledged variance discretion, initially imposed a sentence 30
months below the advisory guidelines, upon remand from the Second Circuit acknowledged that
the variance discretion could be based upon a policy disagreement with the guidelines,
acknowledged awareness of reduction of the crack guidelines (which was prompted by the
unwarranted sentencing disparity between crack and powdered cocaine guidelines) and imposed
a further reduced non-guideline sentence that in terms of the period of incarceration was 76
months below the bottom of the advisory guidelines.
The crimes Mr. Spells committed remain worthy of just punishment and his
sentence promotes respect for the law. There remains a serious and important need to protect the
public from further crimes of this defendant. While increasing age (he is presently 41) reduces
the risk of recidivism, his long criminal history and the fact that his convictions are for firearms
and drug trafficking offenses point to a high rate of recidivism. See United States Sentencing
Commission, The Effects ofAging on Recidivism Among Federal Offenders, fig. 19, p. 25 (Dec.
2017)(rearrest rate of offenders released between ages 40 and 49 originally convicted of a
firearms offense is 62.8% and a drug trafficking offense is 42.3% ).5 With regard to general
deterrence, the Court is unable to discern a qualitative difference in general deterrent effect of
186-month sentence versus the 157-months Spells seeks.

5 A sentence reduction does not, according to research, increase the five-year recidivism rates of crack offenders and
indeed they were slightly lower with a difference that was “not statistically significant.” United States Sentencmg
Commission, Recidivism Among Offenders Receiving Retroactive Sentence Reductions: The 2007 Crack Cocaine
Amendment at 3 (May 2014).

8

Case i:(J4-cr-ui3U4-ri\^

UUUUIIICI It f £-

I

11014

\JsJl U.t /

,

W

Upon the motion (Doc 67) of defendant Ronnie Spells under 18 U.S.C. §
3582(c)(1)(B) for a reduction in the term of imprisonment imposed based on section 404(b) of
the First Step Act of 2018 and recognizing that the Court has discretion to reduce the sentence,
the Court declines to do so for the reasons outline herein. Motion DENIED.

SO ORDERED.

P. Kevin Castel
United States District Judge
Dated: New York, New York
September 27,2019

9

4.

'«

APPENDIX C

UNITED STATES OF AMERICA, Plaintiff-Appellant, versus TARAHRICK TERRY,
Defendant-Appellee.
UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT
2020 U.S. App. LEXIS 30250
No. 20-10482 Non-Argument Calendar
September 22, 2020, Decided
Notice:
PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1 GOVERNING
THE CITATION TO UNPUBLISHED OPINIONS.
Editorial Information: Subsequent History
US Supreme Court certiorari granted by, Motion granted by Terry v. United States. 2021 U.S. LEXIS
483 (U.S., Jan. 8, 2021)
Editorial Information: Prior History
{2020 U.S. App. LEXIS 1}Appeal from the United States District Court for the Southern District of
Florida. D.C. Docket No. 1:08-cr-20194-JAL-1.
Disposition:
AFFIRMED.
For United States of America, Plaintiff - Appellee: Jonathan Colan, Lisa
A. Hirsch, Laura Thomas Rivero, Emily M. Smachetti, U.S. Attorney Service - Southern
District of Florida, U.S. Attorney Service - SFL, Miami, FL.
For Tarahrick Terry, Defendant - Appellant: Raymond D'Arsey
Houlihan III, Federal Public Defender's Office, Miami, FL; Michael Caruso, Federal Public
Defender, Federal Public Defender's Office, Fort Lauderdale, FL.
Judges: Before WILSON, ROSENBAUM and MARCUS, Circuit Judges.
Counsel

CASE SUMMARYDistrict court properly found that defendant did not commit "covered offense" and was
not eligible for relief under First Step Act because based on defendant's prior convictions, term of
imprisonment for defendant's offense was 0 to 30 years' imprisonment, 21 U.S.C.S. § 841(b)(1)(C), and
Fair Sentencing Act did not expressly amend § 841 (b)(1 )(C).
OVERVIEW: HOLDINGS: [1]-The district court did not err by concluding that defendant did not commit a
"covered offense," and, thus, was not eligible for relief under the First Step Act, Pub. L. No. 115-391, 132
Stat. 5194, because defendant pleaded guilty to one count of possession with intent to distribute a
substance containing a "detectable" amount of cocaine base, thus triggering the penalties found in 21
U.S.C.S. § 841(b)(1)(C), and based on defendant's prior convictions, the statutory term of imprisonment
for the count was 0 to 30 years' imprisonment, and the Fair Sentencing Act did not expressly amend §
841(b)(1)(C).

CIRHOT

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

56844054

OUTCOME: Judgment affirmed.
LexisNexis Headnotes
Criminal Law & Procedure > Appeals > Standards of Review > Abuse of Discretion
Governments > Legislation > Interpretation
An appellate court reviews for abuse of discretion a district court's ruling on an eligible movant's request
for a reduced sentence under the First Step Act, Pub. L. No. 115-391, 132 Stat. 5194. However, where
the issue presented involves a legal question, like a question of statutory interpretation, the appellate
court's review is de novo. While district courts lack the inherent authority to modify a term of
imprisonment unless, for example, a statute expressly permits them to do so, 18 U.S.C.S. §
3582(c)(1)(B), the First Step Act expressly allows them to reduce a previously imposed term of
imprisonment in certain situations.
Criminal Law & Procedure > Criminal Offenses > Controlled Substances > Substance Schedules
> Cocaine
Criminal Law & Procedure > Sentencing > Ranges
Criminal Law & Procedure > Criminal Offenses > Controlled Substances > Delivery, Distribution &
Sale > Penalties
Governments > Legislation > Effect & Operation > Retrospective Operation
Criminal Law & Procedure > Sentencing > Imposition > Factors
Section 2 of the Fair Sentencing Act, Pub. L. No. 111-220, 124 Stat. 2372, changed the quantity of crack
cocaine necessary to trigger a 10-year mandatory minimum from 50 grams to 280 grams and the
quantity necessary to trigger a 5-year mandatory minimum from 5 grams to 28 grams. Fair Sentencing
Act § 2(a)(1)-(2). These amendments were not made retroactive to defendants who were sentenced
before the enactment of the Fair Sentencing Act. Further, the Fair Sentencing Act did not expressly
make any changes to 21 U.S.C.S. § 841(b)(1)(C), which provides for a term of imprisonment of not more
than 20 years, or 30 years if there is a prior felony drug conviction, for cases involving quantities of crack
cocaine that do not fall within § 841(b)(1)(A) or (B). Fair Sentencing Act § 2(a); § 841(b)(1)(C).
Governments > Legislation > Effect & Operation > Operability
Criminal Law & Procedure > Sentencing > Corrections, Modifications & Reductions > Reductions
Based on Amended Sentencing Ranges
Under § 404(b) of the First Step Act, Pub. L. No. 115-391, 132 Stat. 5194, a court that imposes a
sentence for a covered offense may impose a reduced sentence as if §§ 2 and 3 of the Fair Sentencing
Act were in effect at the time the covered offense was committed. The statute defines "covered offense"
as a violation of a Federal criminal statute, the statutory penalties for which were modified by §§ 2 or 3 of
the Fair Sentencing Act, Pub. L. No. 111-220, 124 Stat. 2372, that was committed before August 3,
2010. § 404(a). The statute makes clear that nothing in § 404 shall be construed to require a court to
reduce any sentence pursuant to § 404. § 404(c).
Criminal Law & Procedure > Sentencing > Ranges
The United States Court of Appeals for the Eleventh Circuit has interpreted the First Step Act's definition
of a "covered offense," and concluded that the phrase "the statutory penalties for which were modified by
section 2 or 3 of the Fair Sentencing Act" modifies the term "violation of a Federal criminal statute." First

CIRHOT

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

56844054

Step Act § 404(a), Pub. L. No. 115-391,132 Stat. 5194, Thus, a movant’s offense is a covered offense if
§§ 2 or 3 of the Fair Sentencing Act, Pub. L. No. 111-220, 124 Stat. 2372, modified its statutory
penalties. This means that a movant has a covered offense if he was sentenced for an offense that
triggered one of the statutory penalties provided in 21 U.S.C.S. § 841 (b)(1 )(A)(iii) and (B)(iii). Those
provisions are the only provisions in § 841(a) that the Fair Sentencing Act modified.
Criminal Law & Procedure > Sentencing > Imposition > Factors
When a district court is assessing whether an offense triggered the penalties in 21 U.S.C.S. §
841 (b)(1 )(A)(iii) or (B)(iii) and, therefore, was a covered offense, the court must consult the record,
including the movant's charging document, the jury verdict or guilty plea, the sentencing record, and the
final judgment.
Opinion

PER CURIAM:
Tarahrick Terry appeals the district court's denial of his motion for a sentence reduction under
Section 404 of the First Step Act, Pub. L. No. 115-391,132 Stat. 5194 ("First Step Act"). He argues
that he is eligible for a reduction because the Fair Sentencing Act of 2010, Pub. L. No. 111-220, 124
Stat. 2372, raised the weight ceiling of 18 U.S.C. § 841(b)(1)(C) to 28 grams of cocaine base from 5
grams, and thus, modified that section to be a covered offense. After thorough review, we affirm.
We review for abuse of discretion a district court's ruling on an eligible movant's request for a
reduced sentence under the First Step Act. United States v. Jones. 962 F.3d 1290, 1296 (11th Cir.
2020). However, where the issue presented involves a legal{2020 U.S. App. LEXIS 2} question, like
a question of statutory interpretation, our review is de novo. Id.: United States v. Pringle, 350 F.3d
1172, 1178-79 (11th Cir. 2003). While district courts lack the inherent authority to modify a term of
imprisonment unless, for example, a statute expressly permits them to do so, 18 U.S.C. §
3582(c)(1)(B), the First Step Act expressly allows them to reduce a previously imposed term of
imprisonment in certain situations. Jones. 962 F.3d at 1297.
In 2010, before the First Step Act, Congress enacted the Fair Sentencing Act, which amended 21
U.S.C. §§ 841(b)(1) and 960(b) to reduce the sentencing disparity between crack and powder
cocaine. Fair Sentencing Act; see Dorsev v. United States. 567 U.S. 260, 268-69, 132 S. Ct. 2321,
183 L. Ed. 2d 250 (2012) (detailing the history that led to enactment of the Fair Sentencing Act,
including the Sentencing Commission's criticisms that the disparity between crack cocaine and
powder cocaine offenses was disproportional and reflected race-based differences). Section 2 of the
Fair Sentencing Act changed the quantity of crack cocaine necessary to trigger a 10-year mandatory
minimum from 50 grams to 280 grams and the quantity necessary to trigger a 5-year mandatory
minimum from 5 grams to 28 grams. Fair Sentencing Act § 2(a)(1)-(2); see also 21 U.S.C. §
841 (b)(1 )(A)(iii), (B)(iii). These amendments were not made retroactive to defendants who were
sentenced before the enactment of the Fair Sentencing Act. United States v. Berry, 701 F.3d 374,
377 (11th Cir. 2012). Further, the{2020 U.S. App. LEXIS 3} Fair Sentencing Act did not expressly
make any changes to § 841(b)(1)(C), which provides for a term of imprisonment of not more than 20
years, or 30 years if there is a prior felony drug conviction, for cases involving quantities of crack
cocaine that do not fall within § 841(b)(1)(A) or (B). See Fair Sentencing Act § 2(a); 21 U.S.C. §
841(b)(1)(C).

CIRHOT

w
■’■“’vr

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

56844054

>

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Ron
Date: March 29, 2021

10

